Case: 19-3318

Document: 36

Filed: 07/02/2020

Pages: 27

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 19-3318
WESLEY IRA PURKEY,
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA, et al.,
Respondents-Appellees.
____________________
Appeal from the United States District Court for the
Southern District of Indiana, Terre Haute Division.
No. 2:19-cv-00414-JPH-DLP — James P. Hanlon, Judge.

____________________
ARGUED JUNE 16, 2020 — DECIDED JULY 2, 2020
____________________
Before WOOD, Chief Judge, and BRENNAN and ST. EVE,
Circuit Judges.
WOOD, Chief Judge. Accuracy and finality are both central
goals of the judicial system, but there is an inherent conflict
between them. Suppose later information comes to light in a
criminal case, and that information reveals potential factual
or constitutional errors in the original proceeding. Do we
privilege accuracy and re-open the case, or do we privilege
finality and leave the errors unexamined? And if we do

(1a)

Case: 19-3318

Document: 36

2a

2

Filed: 07/02/2020

Pages: 27

No. 19-3318

permit a second look, is a third or fourth also proper? The case
before us presents just such a question, and the stakes could
not be higher. We must decide whether Wesley Purkey, who
sits on federal death row at the U.S. Penitentiary in Terre
Haute, Indiana, has run out of opportunities to challenge his
conviction and death sentence for kidnapping and murder.
Purkey urges that his proceedings up to now have been undermined by ineﬀective assistance of counsel, first at the trial
level, and then on collateral review. The United States argues
that Purkey already has had an opportunity to challenge the
eﬀectiveness of trial counsel and, under the governing statutes, he has come to the end of the line. The district court
ruled for the government. We conclude that this is not one of
those rare cases in which the defendant is entitled to another
day in court, and so we aﬃrm the district court’s judgment.
I
We can be brief about the underlying facts, since we are
concerned almost exclusively about procedure in this appeal.
On January 22, 1998, Purkey (then 46 years old) saw Jennifer
Long at a grocery store in Kansas City, Missouri. He asked her
if she wanted to party with him. She accepted the invitation
and got into Purkey’s pickup truck. At the time, Long was 16
years old; she commented to Purkey that she had been at her
high school but had left after an argument with some friends.
Matters almost immediately took a bad turn: Purkey told
Long that he needed to stop oﬀ briefly at his house in nearby
Lansing, Kansas, but Long objected. Purkey then threatened
her by removing a boning knife from the glove box and placing it under his thigh, while telling her that he would not let
her out of the truck. He drove her across the state line to his

Case: 19-3318

No. 19-3318

Document: 36

3a

Filed: 07/02/2020

Pages: 27

3

home, where he raped her, stabbed her repeatedly with the
boning knife, and ultimately killed her.
In order to conceal the murder, Purkey stored Long’s body
in a toolbox for a few days; he later dismembered it and
burned the pieces in his fireplace. What he could not destroy,
he dumped into a septic lagoon.
That was not Purkey’s only murder during 1998. In October, he killed 80-year-old Mary Ruth Bales using only the claw
end of a hammer. This took place in Kansas, where he was
quickly caught and placed in custody. In December 1998,
while awaiting trial in the Bales case, Purkey sent a letter to
Detective Bill Howard of the Kansas City, Kansas, police department, stating that he wanted to talk about a kidnapping
and homicide that had occurred earlier that year. Purkey also
insisted that an FBI agent come along. His reason was this: he
realized that he faced a life sentence in Kansas for the Bales
murder, but he thought that if he were convicted on federal
charges, he would also receive a life sentence, but he could
serve it in a federal facility. It apparently did not occur to him
that the death penalty is possible for certain federal crimes.
Purkey had several conversations with Detective Howard
and FBI Special Agent Dick Tarpley. In each of them, he said
that he planned to plead guilty in the Bales case. He also expressed a willingness to confess to another murder in exchange for a life sentence in federal prison. Howard and
Tarpley promised to inform the U.S. Attorney in Kansas of
Purkey’s oﬀer, but they made no other commitment. Purkey
then confessed that nine months earlier, he had kidnapped a
young woman named Jennifer in Kansas City, Missouri,
transported her to his home, and had raped, killed, dismembered, and disposed of her. Howard and Tarpley passed this

Case: 19-3318

Document: 36

4a

4

Filed: 07/02/2020

Pages: 27

No. 19-3318

information along to the U.S. Attorney, who indicated that if
Purkey cooperated further, he might be willing to prosecute
the case.
Purkey did cooperate, by taking Howard and Tarpley to
the crime scene, showing them the septic pond where he had
deposited the remains, giving handwritten and oral confessions, and identifying Long’s photograph from a lineup.
Purkey was under the impression that he was negotiating for
a life sentence, but Howard and Tarpley denied that any such
deal was on the table. And indeed, on October 10, 2001, after
Purkey pleaded guilty in Kansas court to the Bales murder, a
grand jury in the Western District of Missouri indicted him
for the kidnapping, rape, and murder of Long, in violation of
18 U.S.C. §§ 1201(a), 1201(g), and 3559(d). The U.S. Attorney
filed a notice that the government planned to seek the death
penalty. See 18 U.S.C. § 3593(a).
II
A
At the trial, Purkey was represented by Attorneys Frederick Duchardt, Jr. (principal counsel) and Laura O’Sullivan. Because Purkey had repeatedly confessed that he kidnapped
Long (four times, by the government’s count), his defense depended on the jury’s accepting his contention that he had lied
when he said that he took her by force, and that the truth was
instead that he thought she was a prostitute who willingly accompanied him from Missouri to Kansas. He testified that he
had fabricated the claim of force because he wanted to be
prosecuted in federal court. The government responded with
certain statements from Purkey’s suppression hearing, at
which he admitted that he took Long across state lines against

Case: 19-3318

No. 19-3318

Document: 36

5a

Filed: 07/02/2020

Pages: 27

5

her will, to impeach his trial testimony. Purkey’s lawyers
made no eﬀort to exclude this evidence, which he now says
was ultimately used not just for impeachment, but (impermissibly) to prove the truth about coercion. The jury was not persuaded by Purkey’s account; on November 5, 2003, it returned
a verdict of guilty.
The penalty phase of the trial began shortly thereafter, on
November 10, 2003. Purkey’s lawyers submitted evidence on
27 mitigating factors, though as we will see, current counsel
believe that their work fell short of the constitutional minimum. Experts testified that Purkey both had organic brain
damage, principally stemming from severe injuries suﬀered
in car accidents, and that his mental capacity was diminished.
The government oﬀered evidence in opposition to the alleged
mitigating factors, and it also introduced evidence of six statutory and four non-statutory aggravating factors. See 18
U.S.C. § 3592(c) (listing 16 statutory aggravating factors and
permitting consideration of any other aggravating factor for
which the defendant received notice). The jury found that the
government had proven the existence of all six statutory factors. See 18 U.S.C. §§ 3592(c)(1), (2), (3), (4), (6), and (11). It also
found three of the four non-statutory factors: loss because of
personal characteristics and impact on the family; previous
vicious killing of Bales; and substantial criminal history.
The penalty question was submitted to the jury on November 19, 2003; it returned a death sentence on the same day.
Although the verdict form included space for findings on mitigating factors, the jury left that section blank. When the jury
announced its verdict, defense counsel initially objected to
this omission and the court oﬀered to send the jury back for
further deliberations. But the government objected, and

Case: 19-3318

Document: 36

6a

6

Filed: 07/02/2020

Pages: 27

No. 19-3318

defense counsel dropped the point without further comment.
The court thus never resolved the question whether the blank
form meant that the jury neglected to address the question of
mitigation, or if it meant that it thought about the subject and
concluded that there was nothing to report. The court formally imposed a sentence of death and entered its judgment
on January 23, 2004.
Purkey appealed to the Eighth Circuit, which aﬃrmed the
conviction and sentence. United States v. Purkey, 428 F.3d 738
(8th Cir. 2005) (Purkey I). The Supreme Court denied Purkey’s
petition for a writ of certiorari. Purkey v. United States, 549 U.S.
975 (2006). Purkey then filed a motion for postconviction relief
under 28 U.S.C. § 2255.
B
Purkey raised two primary claims in his section 2255 proceedings: (1) ineﬀective assistance of trial counsel in 17 diﬀerent particulars, in violation of his Sixth Amendment rights;
and (2) several alleged violations of his due process rights
during the trial (namely, government misconduct during the
trial, insuﬃcient evidence to find kidnapping beyond a reasonable doubt, and error in the jury’s failure to address the
question of mitigating evidence). He urged the district court
to give him an evidentiary hearing on the ineﬀectiveness-ofcounsel claim. In order to respond to that charge, the government submitted a 117-page aﬃdavit from attorney Duchardt,
in which Duchardt defended his work.1 Purkey asserted that
1

The district court ordered the preparation of that affidavit in response to a motion from the government. See Purkey v. United States, No.
06-8001-CV-W-FJG, 2008 WL 11429383 at *2 (W.D. Mo. Feb. 1, 2008). In the
same order, the court denied Purkey’s counsel’s motion to compel the Federal Bureau of Prisons (BOP) to provide Purkey with necessary psychiatric

Case: 19-3318

No. 19-3318

Document: 36

7a

Filed: 07/02/2020

Pages: 27

7

the court could not take Duchardt’s word on these points, and
worse, that Duchardt had misrepresented certain things and
had violated his duty of confidentiality to Purkey. The district
court decided, however, that Purkey had failed to overcome
the presumption that Duchardt’s actions reflected trial strategy. It therefore denied relief under section 2255. Purkey v.
United States, No. 06-8001-CV-W-FJG, 2009 WL 3160774 (W.D.
Mo. Sept. 29, 2009) (Purkey II).
Through counsel, Purkey moved to alter or amend the
court’s rejection of his section 2255 motion; at the same time,
he filed a pro se motion “to Withdraw Habeas Proceedings
and Set an Expeditious Execution Date.” Purkey v. United
States, No. 06-8001-CV-W-FJG, 2009 WL 5176598 (W.D. Mo.
Dec. 22, 2009) (Purkey III). The district court denied the motion
insofar as it sought reconsideration of the denial of relief under section 2255, and it permitted Purkey to withdraw the pro
se motion seeking the abandonment of his section 2255 request and an early execution date. Nearly a year later, the
court issued a lengthy opinion in which it denied Purkey’s request for a certificate of appealability. Purkey v. United States,
No. 06-8001-CV-W-FJG, 2010 WL 4386532 (W.D. Mo. Oct. 28,
2010) (Purkey IV).
Turning to the Eighth Circuit, Purkey was successful in obtaining a certificate of appealability “to review whether
Purkey received eﬀective assistance of counsel during the
penalty phase of the trial and whether the district court
abused its discretion by denying relief without conducting an

treatment, it denied Purkey’s pro se motion seeking leave to dismiss counsel and proceed pro se, and it gave the government an extension of time
in which to respond to the motion under section 2255.

Case: 19-3318

8

Document: 36

8a

Filed: 07/02/2020

Pages: 27

No. 19-3318

evidentiary hearing.” Purkey v. United States, 729 F.3d 860, 861
(8th Cir. 2013) (Purkey V). The certificate permitted “Purkey to
challenge three aspects of Duchardt’s performance in this proceeding: (1) his alleged failure to adequately prepare and present the testimony of three expert witnesses, (2) his alleged
failure to adequately investigate and prepare two mitigating
witnesses, which resulted in their testimony being more prejudicial than beneficial, and (3) his alleged failure to adequately investigate and present other mitigating evidence.”
Id. at 862.
The Eighth Circuit found that Duchardt had presented “a
lengthy and detailed mitigation case” during the penalty
phase. Id. at 863. Over two days, he oﬀered testimony from 18
witnesses—family members, inmates, and religious
counselors—all of whom stated that Purkey’s parents had
inflicted significant physical and emotional abuse on him.
Both were alcoholics, his mother (and many others)
humiliated him because he was a stutterer, and his mother
sexually abused both him and his brother in the most graphic
ways imaginable. Purkey’s medical and mental health records
were introduced; they showed that Purkey had a serious
personality disorder and a below-average IQ. Although
section 2255 counsel had more to oﬀer, the Eighth Circuit
found that the new material was “entirely cumulative.” Id. at
865. Moreover, the court added, to the extent the proﬀered
information did not cover the same ground as the penaltyphase evidence, it could not conclude that there was a
reasonable probability that the new evidence would have
changed the result, given the particularly gruesome nature of
the crime. Id. at 866. Finally, it saw no abuse of discretion in
the district court’s decision not to hold an evidentiary

Case: 19-3318

Document: 36

9a

No. 19-3318

Filed: 07/02/2020

Pages: 27

9

hearing. Purkey sought certiorari from this decision, but the
Supreme Court denied review. 574 U.S. 933 (2014).
C
That set the stage for the current proceedings—and we
mean to use the plural, because there are three moving pieces,
although we are involved in only one of them. As are all federal prisoners under a sentence of death, Purkey is housed in
the U.S. Penitentiary in Terre Haute, Indiana. For many
years—to be exact, since March 18, 2003, when Louis Jones, Jr.
was executed—the federal government has not carried out
any executions. But policy changed in the current Administration, which is moving quickly to resume executions. On July
25, 2019, the government issued a notice scheduling Purkey’s
execution for December 13, 2019. Losing no time, on August
27, 2019, Purkey filed a detailed petition under 28 U.S.C.
§ 2241 in the Southern District of Indiana challenging the constitutionality of his conviction and death sentence. We refer to
this as the “Habeas Corpus” case; it is the one presently before
us. Second, on October 21, 2019, Purkey filed a complaint in
the District of Columbia challenging the execution protocol
that the Bureau of Prisons (BOP) proposes to use. We refer to
this as the “Execution Protocol” case. Finally, on November
11, 2019, Purkey filed another complaint in the District of Columbia, asserting that he was entitled to relief from the death
penalty under the Supreme Court’s ruling in Ford v. Wainwright, 477 U.S. 399 (1985). We refer to this as the Ford claim.
1
Before turning to the Habeas Corpus case, we say a word
about the Execution Protocol litigation and the Ford claim.
The impetus for the Execution Protocol litigation came from

Case: 19-3318

10

Document: 36

10a

Filed: 07/02/2020

Pages: 27

No. 19-3318

the fact that the Federal Death Penalty Act of 1994 (FDPA)
calls for federal executions to be done “in the manner prescribed by the law of the State in which the sentence is imposed.” 18 U.S.C. § 3596(a). At the time the Department of Justice announced that it had scheduled Purkey’s execution for
December 13, 2019, there was a consolidated action pending
in the district court for the District of Columbia. In that case
numerous death-row inmates (some of whom also had fixed
execution dates) challenged the execution protocol that BOP
planned to use for them. The Protocol, adopted in 2019, calls
for BOP to use a single drug, pentobarbital, to carry out executions. See Matter of Federal Bureau of Prisons’ Execution Protocol Cases, Nos. 19-mc-145 (TSC) et al., 2019 WL 6691814
(D.D.C. Nov. 20, 2019).
The details of this litigation need not detain us. What is
important is that the D.C. district court preliminarily enjoined
the Department of Justice from moving ahead under the 2019
Protocol, noting among other things that it had taken DOJ
eight years to come up with the Protocol, that the defendants
had a strong interest in litigating the legality of their executions, and that a minor additional delay would not irreparably injure the government. The initial dates thus came and
went with no executions. The government promptly appealed, however, and a divided panel of the Court of Appeals
for the District of Columbia Circuit vacated the injunction and
remanded the case to the district court. See In re Federal Bureau
of Prisons’ Execution Protocol Cases, 955 F.3d 106 (D.C. Cir.
2020). The majority held that the FDPA does not compel the
DOJ to follow every last detail of the relevant state’s execution
procedures, and that the Department did not violate the Administrative Procedure Act, because this matter is exempt
from notice-and-comment rulemaking. The inmates

Case: 19-3318

Document: 36

11a

No. 19-3318

Filed: 07/02/2020

Pages: 27

11

immediately filed a petition for a writ of certiorari, which was
docketed as No. 19-1348 under the name Bourgeois v. Barr. On
June 29, the Supreme Court denied the petition along with an
application for a stay. We have no role in the Execution Protocol litigation.
2
Purkey’s Ford claim is, by definition, an individual one. In
it, he asserts that he is now aﬄicted with dementia (Alzheimer’s type) and schizophrenia, and that these conditions
have worsened over the time he has been in prison, to the
point that he no longer appreciates why he faces execution.
The government contests these assertions. Ford holds that the
Eighth Amendment bars the execution of a person who, as of
the planned time for death, is “insane.” See 477 U.S. at 410
(plurality opinion of Marshall, J.), 421–22 (Powell, J., concurring in the judgment). See also Panetti v. Quarterman, 551 U.S.
930 (2007) (confirming Ford holding and holding that a Ford
claim is not ripe until execution is imminent). On February 24,
2020, the government filed a motion to dismiss the Ford claim,
or in the alternative to transfer it from the District of Columbia
(where Purkey filed it) to the Southern District of Indiana.
Purkey filed his motion in opposition on March 16, and the
government responded on March 20. To date, the district
court has not yet ruled on the motion.
In the midst of all this, the Department of Justice issued a
statement on June 15 resetting Purkey’s execution date for
July 15, 2020. Purkey responded with a motion filed on June
22 for a preliminary injunction barring the execution. The
government’s response to that motion was due on June 29,
and Purkey’s reply is due on July 2. We have no current role
in the Ford litigation.

Case: 19-3318

Document: 36

12a

12

Filed: 07/02/2020

Pages: 27

No. 19-3318
3

That brings us to the case before us, which Purkey brought
under the basic habeas corpus statute, 28 U.S.C. § 2241. We
held oral argument in this case on June 16, a date that had
long been scheduled as of the time the government issued the
new execution schedule on June 15. The most important question we must answer is whether Purkey is entitled to use section 2241. Only if the answer is yes may we reach the merits
of the claims he wishes to bring.
In the great majority of cases, the exclusive postconviction remedy for a federal prisoner is the one Purkey
already has invoked: a motion under 28 U.S.C. § 2255. Strict
procedures govern the way such a motion must be presented.
First, there is a one-year statute of limitations, which runs
from one of four dates specified in the statute. See 28 U.S.C. §
2255(f). The only relevant date in Purkey’s case is the first:
“the date on which the judgment of conviction becomes
final.” Purkey met that deadline; his section 2255 motion was
the subject of the district court’s decisions in Purkey II through
IV and the Eighth Circuit’s ruling in Purkey V. Second, a
federal prisoner is limited to one motion under section 2255
unless he receives permission to file a second or successive
motion from the appropriate court of appeals. See 28 U.S.C. §
2255(h). The criteria for authorization are draconian: they are
met only if there is compelling newly discovered evidence of
innocence or “a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme
Court.” Id. Purkey concedes that he cannot satisfy either of
these criteria.
Finally, the statute recognizes a narrow pathway to the
general habeas corpus statute, section 2241, in the provision

Case: 19-3318

Document: 36

13a

Filed: 07/02/2020

Pages: 27

No. 19-3318

13

that has come to be called the “safety valve.” Here is what it
says:
An application for a writ of habeas corpus in behalf of
a prisoner who is authorized to apply for relief by motion pursuant to this section, shall not be entertained if it
appears that the applicant has failed to apply for relief,
by motion, to the court which sentenced him, or that
such court has denied him relief, unless it also appears
that the remedy by motion is inadequate or ineﬀective to test
the legality of his detention.
28 U.S.C. § 2255(e) (emphasis added). We thus turn to the
question whether Purkey’s case fits within the narrow confines of the safety valve.
III
This court has had a number of opportunities to consider
the safety valve, but three cases are central: In re Davenport,
147 F.3d 605 (7th Cir. 1998); Garza v. Lappin, 253 F.3d 918 (7th
Cir. 2001); and Webster v. Daniels, 784 F.3d 1123 (7th Cir. 2015)
(en banc). The district court, regarding these three as defining
the limits of the safety valve, examined each of them and concluded that Purkey’s situation was distinguishable. We do not
agree with the idea that those cases rigidly describe the outer
limits of what might prove that section 2255 is “inadequate or
ineﬀective to test the legality” of a person’s detention, but as
we will see, Purkey’s case does not require us to move beyond
what we already have done.
Our first occasion to find the safety valve applicable occurred in Davenport, a case that actually involved two defendants, Davenport and Nichols. The part of the opinion pertinent here involved Nichols. He had been convicted of using a

Case: 19-3318

14

Document: 36

14a

Filed: 07/02/2020

Pages: 27

No. 19-3318

firearm in the commission of a drug oﬀense, in violation of
the version of 18 U.S.C. § 924(c) that existed in 1990. After his
conviction and a failed motion under section 2255, the Supreme Court decided Bailey v. United States, 516 U.S. 137
(1995), which held that “use” for purposes of section 924(c)
did not include mere possession. Because Nichols’s case had
involved only possession, Nichols sought relief under the All
Writs Act, 28 U.S.C. § 1651. The district court rejected that motion as an attempt to evade the need to obtain permission from
the court of appeals to file a successive section 2255 motion.
147 F.3d at 607.
We noted that Nichols’s situation fell outside the narrow
rules under which a second or successive motion may be authorized: he did not claim to have any new evidence, nor was
there a new rule of constitutional law that applied to his case.
Instead, the Supreme Court had cut the legs out from under
the interpretation of his statute of conviction, leaving him in
prison for actions that (as clarified by the Court) did not constitute a crime. Under those circumstances, we held that
A procedure for postconviction relief can fairly be
termed inadequate when it is so configured as to deny
a convicted defendant any opportunity for judicial rectification of so fundamental a defect in his conviction
as having been imprisoned for a nonexistent oﬀense.
Id. at 611. We went on to add three qualifications to that holding. First, “the change of law has to have been made retroactive by the Supreme Court.” Id. Second, “it must be a change
that eludes the permission in section 2255 for successive motions.” Id. And third, “’change in law’ is not to be equated to
a diﬀerence between the law in the circuit in which the prisoner was sentenced and the law in the circuit in which he is

Case: 19-3318

No. 19-3318

Document: 36

15a

Filed: 07/02/2020

Pages: 27

15

incarcerated.” Id. at 612. None of these qualifications applied
to Nichols’s case, and so we held that he was entitled to proceed under section 2241.
The circumstances in Garza were even more unusual than
those in Davenport. Like Purkey, petitioner Garza was on federal death row awaiting execution. He had been convicted on
a number of charges, including three counts of killing in furtherance of a continuing criminal enterprise, in violation of 18
U.S.C. § 848(e). The wrinkle was this: the murders in question
had occurred in Mexico, and he had never been charged or
convicted there for them. Instead, the jury in his U.S. prosecution had found beyond a reasonable doubt at the capital sentencing phase of his trial that he had committed the murders.
See 18 U.S.C. § 3593(c) (requiring the government to prove aggravating factors beyond a reasonable doubt). After Garza exhausted his direct appeals and his motion under section 2255,
he turned to the Inter-American Commission on Human
Rights for relief. This Commission, established pursuant to
the Organization of American States (to which the United
States is a party), exists to hear this type of claim. This was the
earliest point at which Garza could seek relief, because the
Commission requires applicants to exhaust national remedies. The Commission concluded that “Garza’s death sentence was a violation of international human rights norms to
which the United States had committed itself.” 253 F.3d at 920.
Garza followed up in the district court with a petition under section 2241; he conceded that he did not satisfy the criteria for a successive motion under section 2255. We concluded
that he was entitled to use section 2241, because it would have
been impossible under the Inter-American Commission’s exhaustion rule to have sought relief there in time to include its

Case: 19-3318

16

Document: 36

16a

Filed: 07/02/2020

Pages: 27

No. 19-3318

findings in either his direct appeal or his original section 2255
motion. The treaty on which he relied does not give rise to
private rights of action, and so he could not invoke it in his
original case. But, he contended, the Commission’s process
did create private rights. We found that this was not such an
outlandish claim that our jurisdiction was defeated, although
when we reached the merits in his case, we concluded that the
Commission had only the power to make recommendations
to the U.S. government, which remained free to take them or
leave them. That was not enough to justify a stay of his execution, and so we denied his petition.
The last case in this line is Webster, which was decided by
the en banc court. Once again, the result hinged on the availability of section 2241 (via the safety valve) for a federal prisoner who had completed his direct appeals and had unsuccessfully pursued a motion under section 2255. Webster
found himself on death row after being convicted of the federal crime of kidnapping resulting in death and related offenses. 784 F.3d at 1124. Turning to section 2241, he sought to
present “newly discovered evidence that would demonstrate
that he is categorically and constitutionally ineligible for the
death penalty under the Supreme Court’s decisions in Atkins
v. Virginia, 536 U.S. 304 (2002), and Hall [v. Florida, 572 U.S. 701
(2014)].” Id. at 1125. At the trial, a central question was
whether Webster was so intellectually impaired that he
should not be subject to the death penalty. The defense introduced evidence of Webster’s school records, intelligence testing, and inability to fake test results. The government responded with lay witnesses who all said that Webster “did
not seem mentally retarded to them,” id. at 1130, and experts
who said that Webster was able to perform adequately in
school and beyond. Throughout, the government urged that

Case: 19-3318

No. 19-3318

Document: 36

17a

Filed: 07/02/2020

Pages: 27

17

Webster was faking his mental limitations in an eﬀort to avoid
the death penalty.
Years after his conviction and the denial of his section 2255
motion, new counsel discovered evidence that gravely undermined the government’s theory. It turned out that Webster’s
trial counsel had asked the Social Security Administration for
records on Webster and had been told that there were none.
That was wrong. In fact, the Administration had records dating from a year before his crime in which Webster had been
described as someone whose “[i]deation was sparse and this
appeared to be more of a function of his lower cognitive ability than of any mental illness.” Id. at 1133. The same doctor
concluded that Webster was both “mentally retarded and antisocial,” and that there was no evidence of malingering. Id.
There were other records to the same eﬀect.
This was a game-changer for Webster. As we pointed out
in the opinion, there was no question of late fabrication of the
new evidence, and (taking the facts favorably to Webster), his
lawyer had diligently sought evidence from that very
source—the Social Security Administration. Counsel had no
duty to continue pestering the Administration after he had
been informed that it had nothing; he was entitled to take the
government at its word. Moreover, these records were far
from cumulative. They directly contradicted the
government’s assertion at trial that Webster had concocted a
story of mental disability solely to avoid the death penalty. A
jury aware of those records could conclude that Webster is
categorically ineligible for capital punishment under the
Supreme Court’s decision in Atkins. Much more, therefore,
than garden-variety newly discovered evidence was at play.

Case: 19-3318

18

Document: 36

18a

Filed: 07/02/2020

Pages: 27

No. 19-3318

See 784 F.3d at 1140. Only by using the safety valve could
Webster test the constitutionality of his capital sentence.
Purkey recognizes that his case does not fit the profile of
any of the three we have just discussed, but he argues that at
a broader level, he has presented the same type of problem
and we should thus extend our earlier cases to his situation.
In essence, he argues that section 2255 is structurally inadequate to test the legality of a conviction and sentence any time
a defendant receives ineﬀective assistance of counsel in his
one permitted motion. He recognizes that he faces a problem
in the line of Supreme Court decisions holding that there is no
right to counsel in collateral proceedings, and thus no right to
eﬀective assistance of counsel. See Coleman v. Thompson, 501
U.S. 722 (1991). But, he points out, Coleman is not the last word
on this subject. In Martinez v. Ryan, 566 U.S. 1 (2012), and Trevino v. Thaler, 569 U.S. 413 (2013), the Supreme Court recognized that a state prisoner whose first opportunity (either de
jure or de facto) to raise an ineﬀectiveness-of-counsel argument
is in state post-conviction proceedings can avoid procedural
default in a later action under 28 U.S.C. § 2254 if he can show
ineﬀectiveness of post-conviction counsel. And, he adds, this
court held in Ramirez v. United States, 799 F.3d 845 (7th Cir.
2015), that a federal prisoner could seek to reopen an action
under section 2255 using Federal Rule of Civil Procedure
60(b) on reasoning that is analogous to Martinez and Trevino.
With that much established, Purkey jumps from the ability
to use Rule 60(b) to reopen a section 2255 case to the assumption that any federal prisoner whose counsel is ineﬀective during his initial section 2255 proceeding can show that a motion
under section 2255 is inadequate or ineﬀective and thus that
he is entitled to avail himself of section 2241. At oral

Case: 19-3318

Document: 36

19a

No. 19-3318

Filed: 07/02/2020

Pages: 27

19

argument, Purkey also oﬀered a narrower version of this theory, applicable only to capital cases. Because defendants facing the federal death penalty have a statutory right to counsel
in a section 2255 proceeding, see 18 U.S.C. § 3599(a)(2),
Purkey reasons that ineﬀectiveness of that counsel deprives a
defendant of eﬀective collateral review and thus permits the
defendant to resort to section 2241.
The government strenuously opposes this line of reasoning, which it sees as unraveling all of the restrictions Congress
has imposed on collateral relief for federal prisoners. It also
points out that there is a diﬀerence between lacking an opportunity to raise a claim, and having that opportunity but not
using it eﬀectively. At best, it concludes, Purkey is in the latter
situation. He had and used the opportunity to raise his complaints about ineﬀective assistance of trial counsel during his
section 2255 proceeding. The fact that new counsel have now
uncovered even more instances of ineﬀective assistance is not
surprising, but, it says, the same will be true in countless other
cases. Vincit omnia finis.
IV
Although we do not believe that Davenport, Garza, and
Webster create rigid categories delineating when the safety
valve is available—and such a finding would be inconsistent
with the standard-based language of section 2255(e)—we do
think that the words “inadequate or ineﬀective,” taken in context, must mean something more than unsuccessful. We said
as much in Webster. 784 F.3d at 1136. In Davenport, that something more came from the structure of the statute. Statutory
problems are simply not covered in section 2255, whether
through oversight or through confidence that the safety valve
would solve the rare problem that arises when, because of an

Case: 19-3318

20

Document: 36

20a

Filed: 07/02/2020

Pages: 27

No. 19-3318

intervening Supreme Court decision, a person discovers that
he is in prison for something that the law does not criminalize.
In Garza, that something more arose because of an international treaty whose machinery could not be invoked until after the person had exhausted national remedies. And in Webster, the combined facts of the Social Security Administration’s alleged mis-information to counsel, counsel’s diligence,
the timing of the discovery of the critical evidence, and the
constitutional ban on executing the mentally disabled had the
eﬀect of making section 2255 structurally unavailable and
opening the door to the section 2241 proceeding. We need not
speculate on what other scenarios might satisfy the safety
valve, other than to say that there must be a compelling showing that, as a practical matter, it would be impossible to use
section 2255 to cure a fundamental problem. It is not enough
that proper use of the statute results in denial of relief.
At the time Purkey filed his motion under section 2255,
nothing formally prevented him from raising each of the three
errors he now seeks to raise in his petition under 2241. The
first of those relates to the failure of trial counsel not to spot
the fact that Juror 13 (whose first name was also Jennifer) had
disclosed on her jury questionnaire that she too had been the
victim of an attempted rape when she was 16 years old. Because trial counsel never noticed that glaring fact, he did not
object to Juror 13’s being seated, and she in fact served on the
jury that convicted Purkey and voted for the death penalty.
We can accept as true the fact that Purkey’s trial counsel
missed this disturbing coincidence, and it may be likely that
if counsel had noticed it and moved to strike Juror 13 for
cause, such a motion would have been granted. But that is not
the proper question before us now. It is instead whether,

Case: 19-3318

No. 19-3318

Document: 36

21a

Filed: 07/02/2020

Pages: 27

21

having raised in his section 2255 motion 17 specific ways in
which his trial counsel were ineﬀective, Purkey is now entitled to add additional allegations not by obtaining permission
to file a successive section 2255 motion, but through section
2241. Purkey says yes and points to the fact that section 2255
counsel also missed the problem with Juror 13. But how far
are we supposed to take that? What if we were now to permit
a section 2241 proceeding, Purkey were to lose, and new
counsel were to come in and discover that trial counsel also
failed to make a meritorious Batson objection? Would the ineﬀectiveness of the first lawyers who litigated the section 2241
proceeding entitle him to a new section 2241 proceeding? If
not, why not? And if so, what would stop a never-ending series of reviews and re-reviews (particularly since there is no
numerical limit for section 2241)? Purkey has oﬀered no satisfactory answers to these questions, and we can think of none.
Instead, as the law now stands, once a Sixth Amendment
claim of ineﬀective assistance of counsel has been raised, as
happened in Purkey’s case, that is the end of the line. In evaluating applications for permission to file a second or successive petition under 28 U.S.C. § 2254 (the habeas corpus statute
for state prisoners), we are required to dismiss a claim “that
was presented in a prior application.” 28 U.S.C. § 2244(b)(1).
We apply the same rule to second or successive motions under section 2255. Pertinent here, if an applicant has already
raised a Sixth Amendment ineﬀectiveness claim in an earlier
application—even if the specific details of the ineﬀective performance are diﬀerent—we must dismiss a new claim of ineffective assistance of the same lawyer. This rule flows from the
Supreme Court’s instruction to “consider the totality of the
evidence before the judge or jury” in evaluating a claim of ineﬀectiveness, not each particular instance of ineﬀective

Case: 19-3318

22

Document: 36

22a

Filed: 07/02/2020

Pages: 27

No. 19-3318

performance in isolation. Strickland v. Washington, 466 U.S.
668, 695 (1984).
No system is perfect, and we find it troubling that these
rules will leave some people under even a sentence of death
(the ultimate irrevocable action) in the position of never having received eﬀective assistance of counsel in the critical respect. It is thus worth nothing that nothing prevents Congress
from changing the rules, especially for capital cases, to ensure
that the ultimate penalty is not carried out on someone who
fell through the cracks and did not get the quality of legal assistance to which the Constitution entitles him. But, as we
noted at the outset, in a human institution there is always
some risk of error. All we can do is to strive to minimize it and
to follow the law to the best of our ability.
Our analysis of Purkey’s second proposed argument for
his section 2241 petition is similar. Current counsel have undertaken a much more comprehensive search for, and analysis of, the extensive mitigating evidence than trial counsel or
section 2255 counsel had performed. The section 2241 petition
sets out this evidence over nearly 100 pages. Most of this evidence goes well beyond the evidence that post-conviction
counsel presented in Purkey II and that the Eighth Circuit discussed in Purkey V. We agree with Purkey that the eﬀorts of
trial counsel to build a case for mitigation fell short of what
current counsel have now found. But the critical question, as
the Eighth Circuit noted in Purkey V, is whether there is a reasonable probability that this evidence would have changed
the jury’s sentencing recommendation, or if, on the other
hand, it was essentially cumulative.
At this point, we must comment that we are disturbed that
the jury left blank the spaces on the verdict form for its

Case: 19-3318

No. 19-3318

Document: 36

23a

Filed: 07/02/2020

Pages: 27

23

consideration of Purkey’s many trial arguments in mitigation,
and that trial counsel did not insist that the case be returned
to the jury for completion of those blanks when he had the
chance. If the jury really meant that it thought that Purkey had
failed to carry his burden on each and every point, it should
have been required to say so. Once it was focusing on mitigation, however, it may have found some points in Purkey’s favor. There is no doubt, even based on only the trial evidence,
that Purkey has had a hideous life. It was for the jury to balance aggravating and mitigating factors, but it is hard to know
whether it did that.
Once again, however, this fault was apparent to everyone
from the minute the jury returned its verdict. Trial counsel
commented on it; original appellate counsel knew about it;
and section 2255 counsel knew about it. We have no idea at
this remove why counsel did not preserve this point throughout these proceedings. What we do know is that lawyers must
pick and choose among issues, and it is not out of the question
that Purkey’s lawyers thought it better to focus on more
promising arguments. Even if they did not analyze this point,
we are left with the fundamental problem for Purkey: the
mechanisms of section 2255 gave him an opportunity to complain about ineﬀective assistance of trial counsel, and he took
advantage of that opportunity. There was nothing structurally inadequate or ineﬀective about section 2255 as a vehicle
to make those arguments.
Finally, Purkey would like to argue that section 2255 counsel fell below the standards established by the Sixth Amendment (and perhaps section 3599(a)(2)) when counsel omitted
any challenge to the use of Purkey’s testimony at his suppression hearing. Recall that Purkey had confessed several times

Case: 19-3318

24

Document: 36

24a

Filed: 07/02/2020

Pages: 27

No. 19-3318

to both local police and the FBI that he had “kidnapped”
Long, meaning that he had taken her across state lines without her consent. At the suppression hearing (according to
Purkey), trial counsel advised him to stick with that story,
even though trial counsel knew that it was untrue and that
Purkey believed that Long had gone with him willingly. This
is somewhat convoluted, in our view, but as best we understand it, Purkey complied with counsel’s advice at the suppression hearing and continued to maintain that he had coerced Long into driving to Kansas with him. At the suppression hearing, Purkey also wanted to show that this confession
was involuntary, because he gave it only in the erroneous belief that the government was prepared to seek a lighter sentence in federal court if he confessed.
At the trial Purkey gave the jury a new version of events:
he thought Long was a prostitute, she went willingly with
him not only into the truck but from Missouri to Kansas, and
only then did the murder occur. Obviously that would have
invited prosecution from Kansas, but the link necessary for
federal jurisdiction would have disappeared (or so Purkey
thought). When Purkey presented his account, however, the
government impeached his testimony with his statements at
the suppression hearing. Trial counsel did not object, nor did
he object when the government used the same statements to
prove the truth of the matter in its closing argument.
These too are arguments about eﬀectiveness of counsel
that were apparent from the start. The question of Long’s willingness to travel with Purkey was relevant, but it was up to
the jury to decide whether to believe his confessions or his recantation. The record shows that both stories were on the record, and so the government was entitled to use his earlier

Case: 19-3318

Document: 36

25a

No. 19-3318

Filed: 07/02/2020

Pages: 27

25

version as impeachment. If it strayed over the line, that is a
problem, but it is too late to correct it (and it is not clear to us
that this would have been prejudicial, in light of all the evidence against Purkey at the trial).
V
Purkey has raised serious arguments in this appeal—
particularly his points about Juror 13 and the failure to
conduct an adequate mitigation investigation—and we do not
mean to minimize them even though we have ruled against
him. He is correct that the Supreme Court’s decisions in
Martinez and Trevino can be read to say that a person can
overcome a procedural bar to bringing a claim of ineﬀective
assistance of trial counsel in a federal court, if counsel in postconviction proceedings was him- or herself ineﬀective. The
idea of an entitlement to one untainted opportunity to make
one’s case is deeply embedded in our law. Purkey argues that
he has yet to have that one opportunity. He also asks why it
should matter if, in Martinez and Trevino, the ineﬀective
lawyer was engaged in a state-court proceeding, whereas
here, the ineﬀective lawyer was engaged in a federal-court
proceeding, particularly after our ruling in Ramirez.
But the problem is that the availability of further relief for
someone in Purkey’s position is not a simple matter of federal
common law. It is governed by statutes. In this case, the pertinent statute is 28 U.S.C. § 2255(e), a statute that played no
part in Ramirez. For the reasons we have discussed, we conclude that Purkey is not entitled to raise his new arguments
in a petition for a writ of habeas corpus under 28 U.S.C. § 2241.
We thus AFFIRM the judgment of the district court.

Case: 19-3318

26

Document: 36

26a

Filed: 07/02/2020

Pages: 27

No. 19-3318

Before concluding this opinion, however, we have one
more piece of unfinished business to be resolved. As we noted
earlier, 24 hours before the oral argument in this appeal, the
government set Purkey’s execution date for July 15, 2020.
Purkey promptly moved for a stay of execution during the
pendency of these proceedings. The government has opposed
his motion.
The Supreme Court set forth the requirements for a stay in
Nken v. Holder, 556 U.S. 418 (2009):
(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2)
whether the applicant will be irreparably injured absent a stay; (3) whether issuance of the stay will substantially injure the other parties interested in the proceeding; and (4) where the public interest lies.
Id. at 434. Importantly, although the Nken Court held that
something more than a “better than negligible” chance of success is necessary, it also stressed that the injury the applicant
faced in its own case was not “categorically irreparable.” Id.
at 434–35. Although we have ruled against Purkey on the merits, we have emphasized that at least two of the points he has
raised are worthy of further exploration—the seating of Juror
13, and the failure of trial counsel to conduct a proper mitigation analysis. We have rejected those points not on the merits,
but because of our understanding of the safety valve language, 28 U.S.C. § 2255(e). If our reading of the safety valve is
too restrictive, there would be significant issues to litigate.
And, unlike the alien in Nken, Purkey faces categorically irreparable injury—death. A brief stay to permit the orderly
conclusion of the proceedings in this court will not substantially harm the government, which has waited at least seven

Case: 19-3318

No. 19-3318

Document: 36

27a

Filed: 07/02/2020

Pages: 27

27

years to move forward on Purkey’s case. Finally, the public
interest is surely served by treating this case with the same
time for consideration and deliberation that we would give
any case. Just because the death penalty is involved is no reason to take short-cuts—indeed, it is a reason not to do so.
For these reasons, we grant Purkey’s motion on the following terms. His July 15, 2020, date of execution is temporarily
stayed pending the completion of proceedings in the Seventh
Circuit. This stay will expire upon the issuance of this court’s
mandate or as specified in any subsequent order that is issued.

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 1 of 29 PageID #: 9575
28a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
WESLEY IRA PURKEY,

)
)
)
)
)
)
)
)
)

Petitioner,
v.
UNITED STATES OF AMERICA, et al.
Respondents.

No. 2:19-cv-00414-JPH-DLP

ORDER DENYING PETITION FOR A WRIT OF HABEAS CORPUS
Wesley Purkey is a federal prisoner on death row at the United States
Penitentiary in Terre Haute, Indiana. He was sentenced to death 16 years ago
in the United States District Court for the Western District of Missouri after a
jury found him guilty of kidnapping and murdering Jennifer Long.
conviction and sentence were affirmed on direct appeal.

The

Mr. Purkey sought

postconviction relief under 28 U.S.C. § 2255 in the district court where he was
convicted and sentenced. That request was denied by the district court and
affirmed on appeal.
Mr. Purkey cannot bring a successive § 2255 motion in the court of
conviction, so he seeks relief from this Court in the form of a 28 U.S.C. § 2241
petition that raises eight claims. These claims, however, cannot be raised and
adjudicated under § 2241 because they do not fall within any of the limited
circumstances the Seventh Circuit has recognized when a federal prisoner may
challenge a conviction and sentence by way of § 2241. Moreover, there is not a
structural problem with § 2255 when applied to Mr. Purkey’s case. For these
1

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 2 of 29 PageID #: 9576
29a
reasons, Mr. Purkey’s § 2241 action must be dismissed and his petition for a
writ of habeas corpus denied.
I.
A full recitation of the facts and procedural background is set forth in the
two opinions issued by the United States Court of Appeals for the Eighth Circuit
following Mr. Purkey’s appeals. See United States v. Purkey, 428 F.3d 738, 74446 (8th Cir. 2005) (“Purkey I”); United States v. Purkey, 729 F.3d 860, 866-68
(8th Cir. 2013) (“Purkey II”).
A.

Factual Background

While the details of Mr. Purkey’s crimes are not relevant to the ultimate
resolution of his legal claims, a brief summary is appropriate for context.
Jennifer Long, a sixteen-year-old high school sophomore, disappeared in
January 1998. Purkey I, 428 F.3d at 745. She was walking on a sidewalk in
Missouri when Mr. Purkey picked her up in his truck and drove her to his house
in Kansas. Purkey II, 729 F.3d at 866-67. Mr. Purkey raped her and, after she
attempted to escape, “became enraged and repeatedly stabbed [her] in the chest,
neck, and face with [a] boning knife, eventually breaking its blade inside her
body.” Id.

Mr. Purkey dismembered her body with a chainsaw, burned her

remains in his fireplace, and dumped them into a septic pond. Id.
No one knew what happened to Jennifer Long until December 1998.
Purkey I, 428 F.3d at 745. At that time, Mr. Purkey faced a life sentence for
murdering eighty-year-old Mary Ruth Bales, whom Mr. Purkey bludgeoned to
death with a hammer in her own home. Purkey II, 729 F.3d at 867–68. Mr.
2

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 3 of 29 PageID #: 9577
30a
Purkey confessed to law enforcement that he had kidnapped, raped, and
murdered Jennifer Long earlier that year.

Id.

He also admitted taking

“extraordinary measures to dispose of the body, including dismembering it with
a chain saw and burning the remains[.]”

Purkey I, 428 F.3d at 745.

Law

enforcement recovered remnants of crushed human bones where Mr. Purkey told
them he had disposed of them, and in his former house where the murder took
place. Mr. Purkey led law enforcement to where he left her remains. Id; Purkey
II, 729 F.3d at 867; Dkt. 33-1 at 76–78.
B.

Procedural Background

Mr. Purkey was indicted for the kidnapping and murder of Jennifer Long
on October 10, 2001, in the United States District Court for the Western District
of Missouri. See United States v. Purkey, No. 4:01-cr-00308-FJG (W.D. Mo. Oct.
10, 2001), Dkt. 1. On November 5, 2003, a jury found Mr. Purkey guilty. Id.,
Dkt. 461.
The separate penalty phase of the proceedings lasted seven days.

Mr.

Purkey’s counsel presented 27 mitigating factors, including evidence of brain
abnormalities and abuse as a child.

Dkt. 23-37 at 94-97.

The mitigation

evidence included the testimony of 18 witnesses over two days. Dkt. 38-1; Dkt.
39-1; Dkt. 40-1; Dkt. 41-1; Dkt. 42-1. Finding the existence of all six statutory
aggravating factors, the jury recommended a sentence of death. Purkey, No.
4:01-cr-00308-FJG, Dkt. 487. The District Court sentenced Mr. Purkey to death
on January 23, 2004. Id., Dkt. 505.

3

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 4 of 29 PageID #: 9578
31a
Mr. Purkey appealed his conviction and sentence to the United States
Court of Appeals for the Eighth Circuit.

He raised several challenges to the

pretrial proceedings, jury selection, and the guilt and penalty phases. Purkey I,
428 F.3d at 746–64. One of those challenges—which is similar to claims before
this Court—was that the District Court erred by accepting the mitigating factors
portion of the verdict without requiring the jury to write out their specific
findings.

Id. at 763.

The Eighth Circuit rejected Mr. Purkey’s claims and

affirmed his conviction and sentence. Id. at 764. Mr. Purkey’s petition for writ
of certiorari was denied by the United States Supreme Court on October 16,
2006. See Purkey v. United States, 127 S. Ct. 433 (2006).
On November 25, 2006, Mr. Purkey initiated postconviction proceedings
by filing a motion to vacate, set aside, or correct sentence under 28 U.S.C. § 2255
in the United States District Court for the Western District of Missouri. See
Purkey v. United States, 2009 WL 3160774 (W.D. Mo. Sept. 29, 2009). The same
District Judge who presided over Mr. Purkey’s trial presided over his § 2255
motion.
Mr. Purkey made 17 allegations of ineffective assistance against his trial
counsel—Frederick Duchardt, Jr. and Laura O’Sullivan.

Id. at *1-3.

Mr.

Duchardt submitted a 117-page affidavit to “refute” Mr. Purkey’s claims. Id. at
*2. The District Court substantially relied on Mr. Duchardt’s affidavit in rejecting
the ineffective assistance of counsel claims. Id. Mr. Purkey also alleged several
due process violations. Id. at *3-5. The District Court rejected these claims as
well and denied Mr. Purkey’s § 2255 motion. Id. at *6. The District Court later
4

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 5 of 29 PageID #: 9579
32a
denied Mr. Purkey’s Rule 59(e) motion to alter or amend the judgment, see
Purkey v. United States, 2009 WL 5176598, *3 (W.D. Mo. Dec. 22, 2009), and his
request for a certificate of appealability, see Purkey v. United States, 2010 WL
4386532, *10 (W.D. Mo. Oct. 28, 2010).
Mr. Purkey sought a certificate of appealability from the Eighth Circuit on
several claims, see Dkt. 48-13, but the Eighth Circuit granted Mr. Purkey a
certificate of appealability on only two of them, see Purkey II, 729 F.3d at 861;
Dkt. 48-14. First, the Eighth Circuit permitted Mr. Purkey to raise three issues
regarding the ineffectiveness of his trial counsel during the penalty phase: “(1)
his alleged failure to adequately prepare and present the testimony of three
expert witnesses, (2) his alleged failure to adequately investigate and prepare two
mitigating witnesses, which resulted in their testimony being more prejudicial
than beneficial, and (3) his alleged failure to adequately investigate and present
other mitigating evidence.” Purkey II, 729 F.3d at 862. These issues are similar
to the second claim Mr. Purkey raises in this Court. Second, the Eighth Circuit
permitted Mr. Purkey to challenge whether the District Court abused its
discretion by denying relief without an evidentiary hearing. Id.
The Eighth Circuit rejected both of Mr. Purkey’s claims. It reasoned that
it need not decide whether Mr. Purkey could establish deficient performance—
and consequently did not consider Mr. Duchardt’s affidavit—because Mr. Purkey
could not establish prejudice given the “particularly gruesome” nature of the
crime. Id. at 862-68 & n.2. As to whether the District Court should have held
an evidentiary hearing, the Eighth Circuit reasoned that Mr. Purkey could not
5

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 6 of 29 PageID #: 9580
33a
establish prejudice even taking his evidence as true, so it was not an abuse of
discretion to decline to hold an evidentiary hearing. Id. at 869.
Mr. Purkey petitioned for panel rehearing, Dkt. 48-15, which the Eighth
Circuit denied on December 17, 2013, Dkt. 48-16. The Supreme Court denied
Mr. Purkey’s petition for writ of certiorari on October 14, 2014. See Purkey v.
United States, 135 S. Ct. 355 (2014).
On July 25, 2019, the Department of Justice set Mr. Purkey’s execution
date for December 13, 2019.

He filed the instant habeas petition under 28

U.S.C. § 2241 on August 27, 2019. He filed an amended petition on September
12, 2019. The petition was fully briefed on October 28, 2019.
II.
Mr. Purkey raises eight claims in his § 2241 petition:
(1) trial counsel provided ineffective assistance by failing to challenge Juror 13;
(2) trial counsel provided ineffective assistance by failing to investigate, develop,
and present compelling mitigation evidence;
(3) Mr. Duchardt perpetrated a fraud on the Court during the § 2255 proceedings
by submitting an affidavit containing false and misleading statements to
undermine Mr. Purkey’s ineffective assistance of counsel claims;
(4) Mr. Purkey’s death sentence violates the Eighth Amendment because there is
a substantial possibility that the jury instructions led the jury to believe that
they could not consider certain mitigating evidence;

6

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 7 of 29 PageID #: 9581
34a
(5) Mr. Purkey’s death sentence violates the Sixth Amendment because the jury
did not find beyond a reasonable doubt each fact necessary to impose a death
sentence;
(6) imposition of the death penalty under the Federal Death Penalty Act violates
the Eighth Amendment;
(7) imposition of the death penalty on individuals such as Mr. Purkey who suffer
from a severe mental illness violates the Eighth Amendment; and
(8) trial counsel provided ineffective assistance by improperly advising Mr.
Purkey before he testified at the pre-trial suppression hearing. See Dkt. 23.
The United States takes the position that the Court cannot reach the
merits of these claims because Mr. Purkey cannot raise them in a § 2241
petition. Dkt. 49. That’s true if Mr. Purkey cannot meet the requirements of 28
U.S.C. § 2255(e)—commonly referred to as the Savings Clause. See Webster v.
Daniels, 784 F.3d 1123, 1135 (7th Cir. 2015) (en banc). Mr. Purkey argues that
some of his claims meet these requirements. Dkt. 23; Dkt. 58.
III.
The Court begins its analysis by examining the statutory framework
governing federal prisoners’ postconviction challenges. The Court next assesses
whether Seventh Circuit precedent requires or allows Mr. Purkey’s claims to
proceed under the Savings Clause.

The Court then turns to Mr. Purkey’s

arguments for recognizing a new category of claims that can be brought via §
2241.

7

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 8 of 29 PageID #: 9582
35a
A.

Statutory
Framework
Postconviction Relief

for

Federal

Prisoners

Seeking

The only way a federal prisoner may pursue postconviction relief in a
separate civil action is under 28 U.S.C. §§ 2255 and 2241.
1. Section 2255
“As a general rule, a federal prisoner wishing to collaterally attack his
conviction or sentence must do so under § 2255.” Chazen v. Marske, 938 F.3d
851, 856 (7th Cir. 2019). Congress has placed limitations on a federal prisoner’s
ability to bring a § 2255 action. First, such action can only be brought in the
court which imposed the sentence.

28 U.S.C. § 2255(a).

Second, a federal

prisoner is limited to bringing one § 2255 motion, unless the court of appeals for
the district where the action is filed determines that a second or successive
motion contains:
(1) newly discovered evidence that, if proven and viewed in light of
the evidence as a whole, would be sufficient to establish by clear and
convincing evidence that no reasonable factfinder would have found
the movant guilty of the offense; or
(2) a new rule of constitutional law, made retroactive to cases on
collateral review by the Supreme Court, that was previously
unavailable.
28 U.S.C. § 2255(h).
2. The Savings Clause and Section 2241
Congress created within § 2255 a narrow exception to the “general rule”
that requires a federal prisoner to bring a collateral attack under § 2255—the
Savings Clause. Under the Savings Clause, a prisoner can seek a writ of habeas
corpus through an action under § 2241 if the prisoner can show “that the remedy
8

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 9 of 29 PageID #: 9583
36a
by [§ 2255] motion is inadequate or ineffective to test the legality of his
detention.” 28 U.S.C. § 2255(e). Unlike a § 2255 action, which must be brought
in the district where the sentence was imposed, a § 2241 action must be brought
in the district where the prisoner is in custody. Webster, 784 F.3d at 1124.
Consistent with the “general rule,” the Savings Clause “steers almost all
prisoner challenges to their convictions and sentences toward § 2255” and away
from § 2241. Shepherd, 911 F.3d 861, 862 (7th Cir. 2018).

Consequently, a

federal prisoner may seek relief under § 2241 “[o]nly in rare circumstances where
§ 2255 is inadequate or ineffective to test the legality of the prisoner’s detention
. . . .” Light v. Caraway, 761 F.3d 809, 812 (7th Cir. 2014) (citations and
quotations omitted). To determine whether Mr. Purkey’s petition presents such
a “rare circumstance,” the Court looks to Seventh Circuit precedent.
B.

Instances Where the Seventh Circuit has Found the Savings
Clause to Apply

Determining whether § 2255 is inadequate or ineffective is a “very knotty
procedural issue” of “staggering” complexity. Chazen, 938 F.3d at 855-56. While
it is “hard to identify exactly what [the Savings Clause] requires,” id. at 863
(Barrett, J., concurring), several guiding principles have emerged from the cases.
Section 2255 is inadequate or ineffective as applied to a specific case only
where there is “some kind of structural problem with section 2255.” Webster,
784 F.3d at 1136. A structural problem requires “something more than a lack
of success with a section 2255 motion.” Id. It must “foreclose[] even one round
of effective collateral review, unrelated to the petitioner’s own mistakes.” Poe v.

9

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 10 of 29 PageID #: 9584
37a
LaRiva, 834 F.3d 770, 773 (7th Cir. 2016) (citation and quotation omitted).
Section 2255 is inadequate or ineffective where the court finds that the federal
prisoner did not have “a reasonable opportunity [in a prior § 2255 proceeding] to
obtain a reliable judicial determination of the fundamental legality of his
conviction and sentence.” Chazen, 938 F.3d at 856 (alteration in original)
(quoting In re Davenport, 147 F.3d 605, 609 (7th Cir. 1998)).
Applying these principles, the Seventh Circuit has found a structural
problem with § 2255 in three instances:
1.

When a claim is based on a new rule of statutory law made retroactive by
the Supreme Court. See Davenport, 147 F.3d at 610.

2.

When a claim is based on a decision of an international tribunal that
could not have been raised in an initial § 2255 motion. See Garza v.
Lappin, 253 F.3d 918, 920 (7th Cir. 2001).

3.

When a claim is based on limited types of new evidence that “would reveal
that the Constitution categorically prohibits a certain penalty.” Webster,
784 F.3d at 1139.

See id. at 1135–36 (analyzing Davenport—which contains the Seventh Circuit’s
“most extensive treatment” of the Savings Clause—and Garza when setting out
the Seventh Circuit’s Savings Clause precedents); see also Fulks v. Krueger, 2019
WL 4600210, *3 (S.D. Ind. Sept. 20, 2019). The parties appear to agree that
these three cases identify the structural problems with § 2255 recognized by the
Seventh Circuit. See Dkt. 49 at 38–42; Dkt. 58 at 7–9.

10

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 11 of 29 PageID #: 9585
38a
1. Davenport
In Davenport, the Seventh Circuit found a structural problem in § 2255
because § 2255(h) does not permit federal prisoners to file a second or successive
§ 2255 motion raising claims based on new statutory law. The petitioner sought
the benefit of a Supreme Court decision changing the Seventh Circuit’s
interpretation of a statute that existed at the time of his first § 2255 motion.
Davenport, 147 F.3d at 610. Because the Supreme Court changed the governing
law after the petitioner’s § 2255 proceedings had concluded, he “could not [have]
use[d] a first motion under [§ 2255] to obtain relief on a basis not yet established
by law.” Id. Nor could he have received authorization to file “a second or other
successive motion [under § 2255(h)] . . . because the basis on which he [sought]
relief [was] neither newly discovered evidence nor a new rule of constitutional
law.”

Id. (emphasis added); see Poe, 834 F.3d at 773 (“Where Davenport

recognized a structural problem in § 2255(h) is in the fact that it did not permit
a successive petition for new rules of statutory law made retroactive by the
Supreme Court.”). This structural problem was fixed in Davenport “by effectively
giving such prisoners the relief that they would have had if § 2255(h)(2) had
included them.” Chazen, 938 F.3d at 864 (Barrett, J., concurring).
The Seventh Circuit has “developed a three-part test implementing
Davenport’s holding.” Beason v. Marske, 926 F.3d 932, 935 (7th Cir. 2019). The
petitioner must establish that:
(1) the claim relies on a statutory interpretation case, not a
constitutional case and thus could not have been invoked by a
successive § 2255 motion; (2) the petitioner could not have invoked
11

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 12 of 29 PageID #: 9586
39a
the decision in his first § 2255 motion and the decision applies
retroactively; and (3) the error is grave enough to be deemed a
miscarriage of justice.
Id.
2. Garza
In Garza, the Seventh Circuit again found a structural problem with
§ 2255 rooted in § 2255(h). After the conclusion of the petitioner’s first § 2255,
he received a decision from the Inter-American Commission on Human Rights
finding that his rights were violated during the penalty phase of his criminal
trial. Garza, 253 F.3d at 920. The petitioner wished to use this decision to
challenge his death sentence.

Id.

Notably, the petitioner could not have

petitioned the Inter-American Commission on Human Rights for relief until he
had exhausted his “national remedies”—that is, until after he had filed a § 2255
motion. Id. Because it was “literally impossible” for the petitioner to have raised
his claim in his § 2255 motion, there was a structural problem with § 2255 in
that it did not “provide[] an adequate avenue for testing Garza’s present challenge
to the legality of his sentence.” Id. at 922–23. Simply put, the petitioner could
not have raised his claim in his initial § 2255, nor, as in Davenport, could he
have received authorization to file a second or successive § 2255 motion under
§ 2255(h). Id. at 923.
3. Webster
In Webster, the Seventh Circuit held for the first and only time that the
Savings Clause was met for a constitutional claim. The petitioner in Webster
sought to challenge his death sentence as barred by Atkins v. Virginia, 536 U.S.
12

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 13 of 29 PageID #: 9587
40a
304 (2002), which held that the Eighth Amendment forbids the execution of a
person with an intellectual disability.

Although the petitioner had raised an

Atkins claim in his § 2255 proceeding, he wished to present “newly discovered
evidence” to support that claim in his § 2241 petition. Webster, 784 F.3d at
1125.
The Seventh Circuit found that “there is no categorical bar against resort
to section 2241 in cases where new evidence would reveal that the Constitution
categorically prohibits a certain penalty.” Id. at 1139. The structural problem
identified by the Seventh Circuit was based on at least two concerns. First,
§ 2255(h)(1) only allows a second or successive § 2255 motion if newly discovered
evidence meets a certain threshold to demonstrate that the petitioner is not
guilty of the offense. Id. at 1134–35, 1138. It does not allow for such motions if
the petitioner presents newly discovered evidence that the petitioner is ineligible
to receive his sentence.

Id.

Second, Congress could not have contemplated

whether claims of categorical ineligibility for the death penalty should be
permitted in second or successive § 2255 motions because the relevant cases—
Atkins and Roper v. Simmons, 543 U.S. 551 (2005) 1—had not been decided when
§ 2255 was enacted. Webster, 784 F.3d at 1138 (“[T]he fact that the Supreme
Court had not yet decided Atkins and Roper at the time AEDPA was passed
supports the conclusion that the narrow set of cases presenting issues of
constitutional ineligibility for execution is another lacuna in the statute.”); id. at
In Roper, the Supreme Court held it violates the Eighth and Fourteenth
Amendments to impose “the death penalty on offenders who were under the age
of 18 when their crimes were committed.” 543 U.S. at 578.

1

13

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 14 of 29 PageID #: 9588
41a
1139 (“In Webster’s case, the problem is that the Supreme Court has now
established that the Constitution itself forbids the execution of certain people:
those who satisfy the criteria for intellectual disability that the Court has
established, and those who were below the age of 18 when they committed the
crime.”).
Webster is the first and only time the Seventh Circuit permitted a
constitutional claim to proceed through the Savings Clause. Indeed, the court
“took great care to assure that its holding was narrow in scope.” Poe, 834 F.3d
at 774.

It limited its holding to the narrow legal and factual circumstances

presented in the case, stating explicitly that the case “will have a limited effect
on future habeas corpus proceedings.” Webster, 784 F.3d at 1140 n.9; see Poe,
834 F.3d at 774 (“[T]here is nothing in Webster to suggest that its holding applies
outside the context of new evidence.”).
To fall within Webster’s holding, the new evidence must meet three
conditions:
First, the evidence sought to be presented must have existed at the
time of the original proceedings. . . . Second, the evidence must have
been unavailable at the time of trial despite diligent efforts to obtain
it. Third, and most importantly, the evidence must show that the
petitioner is constitutionally ineligible for the penalty he received.
Because the Supreme Court has declared only two types of persons
(minors and the intellectually disabled) categorically ineligible for a
particular type of punishment, our ruling is as a matter of law
limited to that set of people—those who assert that they fell into one
of these categories at the time of the offense. These three limitations
are more than adequate to prevent the dissent’s feared flood of
section 2241 petitions[.]
Webster, 784 F.3d at 1140 n.9. It’s thus “a rare case” that qualifies. Id. at 1140.

14

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 15 of 29 PageID #: 9589
42a
In sum, the Seventh Circuit has found a structural defect in § 2255 in
three instances, each limited to a narrowly identified specific type of claim.
C.

Mr. Purkey’s Claims Do Not Fit within Any of the Instances
Where the Seventh Circuit Has Found the Savings Clause to
Apply

Mr. Purkey’s claims do not fall within the holdings of Davenport, Garza, or
Webster. Mr. Purkey’s claims are all constitutional rather than statutory, so
none of them meet Davenport’s first requirement. See Poe, 834 F.3d at 773
(explaining that Davenport “preclude[s] use of § 2241 for a constitutional case”).
The structural defect in § 2255 identified in Davenport—that § 2255(h) does not
permit successive § 2255 motions “for new rules of statutory law made
retroactive by the Supreme Court,” id.—therefore does not apply to any of his
claims.
Mr. Purkey’s claims do not fit within Garza’s narrow holding. Unlike the
petitioner’s claims in Garza—which were based on the decision of an
international tribunal and could not possibly have been raised in his initial
§ 2255 motion—Mr. Purkey’s claims are common constitutional claims that can
be raised in a § 2255 motion and thus do not implicate the structural concern
identified in Garza.

Notably, the Seventh Circuit has recognized that Garza

involved “‘very unusual facts’ . . . [and thus] its applicability beyond those facts
is limited.” Kramer v. Olson, 347 F.3d 214, 218 n.1 (7th Cir. 2003) (quoting
Garza, 253 F.3d at 921).
Last, Mr. Purkey’s claims do not fall within Webster’s narrow holding.
Among other limitations, Webster only applies to claims that an individual is
15

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 16 of 29 PageID #: 9590
43a
“categorically ineligible for the death penalty,” such as claims under Atkins and
Roper. Webster, 784 F.3d at 1138-40; see id. at 1140 n.9 (“Because the Supreme
Court has declared only two types of persons (minors and the intellectually
disabled) categorically ineligible for a particular type of punishment, our ruling
is as a matter of law limited to that set of people—those who assert that they fell
into one of these categories at the time of the offense.”). 2 Only one of Mr. Purkey’s
claims meets this requirement—his claim that Atkins should be extended to
preclude execution of those who are mentally ill. Dkt. 23 at 199. But Mr. Purkey
does not present any argument that this claim meets the Savings Clause, let
alone a specific argument that it meets the requirements of Webster by, for
example, showing that the claim relies on newly discovered evidence that existed
at the time of the original proceeding. See Dkt. 23; Dkt. 58. Accordingly, Mr.

For the first time in his reply, Mr. Purkey presents a cursory argument for why
the Savings Clause is met for Claim 4 (that the jury instructions led the jury to
believe that they could not consider certain mitigating evidence) and Claim 6 (the
death penalty violates the Eighth Amendment). See Dkt. 58 at 67-69. He argues
that Claim 4 falls within Webster because he relies on new evidence—namely,
juror affidavits that purportedly show that jurors misunderstood the jury
instructions. Id. at 66-67. But, as explained, this claim does not meet Webster’s
third limitation.
2

As to Claim 6, he argues that this claim relies on new law—the Supreme Court’s
decision in Hurst v. Florida, 136 S. Ct. 616 (2016)—and thus his claim falls
within Garza and Webster. Dkt. 58 at 68-69. Webster is of no assistance for
this claim, as it does not rely on new evidence. Poe, 834 F.3d at 774 (“[T]here is
nothing in Webster to suggest that its holding applies outside the context of new
evidence.”). Garza is also of no assistance, as nothing in it suggests that simply
relying on a new legal precedent can meet the Savings Clause. If it did, Garza
would not be described by the Seventh Circuit as having only “limited”
applicability beyond its “‘very unusual facts.’” Kramer, 347 F.3d at 218 (quoting
Garza, 253 F.3d at 921).
16

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 17 of 29 PageID #: 9591
44a
Purkey’s claims cannot proceed through the Savings Clause via the structural
defect in § 2255 identified in Webster.
Recognizing that his claims do not fall within the specific holdings of
Davenport, Garza, or Webster, dkt. 58 at 7-8, Mr. Purkey argues that he can
nonetheless meet the general Savings Clause test set forth in these cases. Id. at
7-9. In other words, Mr. Purkey asks this Court to extend the Seventh Circuit’s
Savings Clause precedents to new types of claims. The Court now turns to these
arguments.
D.

The Martinez–Trevino Doctrine Does Not Apply to Mr. Purkey’s
Case

Mr. Purkey’s only fully developed Savings Clause argument is for his
ineffective assistance of trial counsel claims (Claims 1, 2, and 8). 3 See Dkt. 23
at 11-19; Dkt. 58 at 6-19. Mr. Purkey argues that his ineffective assistance
claims meet the Savings Clause because he “has not had a meaningful
opportunity to present” them to any Court. Dkt. 23 at 15.
There is no dispute that Mr. Purkey could not have raised these ineffective
assistance claims on direct appeal and that he cannot raise them now in a
second or successive § 2255 motion. Dkt. 23 at 12, 15; Dkt. 49 at 36. Mr.
Purkey could not have raised his ineffective assistance claims on direct appeal
because, except in rare circumstances, such claims “should be pursued in a
collateral proceeding under 28 U.S.C. § 2255.” United States v. Moody, 770 F.3d

Mr. Purkey does not advance any argument for why the Savings Clause is met
for Claims 5 and 7, and the cursory arguments for why his other claims meet
the Savings Clause are addressed in Section III.C above.

3

17

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 18 of 29 PageID #: 9592
45a
577, 582 (7th Cir. 2014); see United States v. Bryant, 754 F.3d 443, 444 (7th Cir.
2014) (“A claim of ineffective assistance need not, and usually as a matter of
prudence should not, be raised in a direct appeal, where evidence bearing on the
claim cannot be presented and the claim is therefore likely to fail even if
meritorious.”).

He cannot raise them now in a second or successive § 2255

motion because his claims do not meet the criteria in § 2255(h).
That leaves the failure to raise the claims in his initial § 2255 proceeding.
Mr. Purkey maintains that he did not raise them because § 2255 counsel was
ineffective. 4 Dkt. 23 at 13-18. Mr. Purkey argues that he may raise these claims
now in this § 2241 action based on Martinez v. Ryan, 566 U.S. 1 (2012), Trevino
v. Thaler, 569 U.S. 413 (2013), and Ramirez v. United States, 799 F.3d 845, 853
(7th Cir. 2015). Dkt. 23 at 16-17. The United States argues that neither the
Martinez–Trevino doctrine nor Ramirez relate to the Savings Clause analysis, and
that this Court should not extend the holdings of those cases to the entirely
different legal question presented here. Dkt. 49 at 42-47.
1. The Martinez–Trevino Doctrine
The Court begins with the Martinez–Trevino doctrine. Both Martinez and
Trevino involved state prisoners whose ineffective assistance of trial counsel
claims were deemed procedurally defaulted by a federal court because the claims
were not properly raised in state court.

Because Mr. Purkey’s claims must be rejected for other reasons, the Court does
not address whether § 2255 counsel provided ineffective assistance by not
adequately investigating and presenting Mr. Purkey’s ineffective assistance of
trial counsel claims.

4

18

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 19 of 29 PageID #: 9593
46a
In Martinez, appointed postconviction counsel failed to raise an ineffective
assistance claim in an Arizona collateral proceeding. Martinez’s postconviction
relief case was dismissed. About a year and half later, Martinez obtained new
counsel and filed new ineffective assistance of counsel claims in a second Arizona
collateral proceeding.

The petition was dismissed because Martinez had not

raised these claims in his first collateral proceeding.

After exhausting all

postconviction procedures available under Arizona law, Martinez sought habeas
relief in federal court.
The District Court denied relief on the basis that Martinez had
procedurally defaulted his ineffective assistance claims by not properly raising
them in state court. After the Ninth Circuit affirmed, the Supreme Court granted
certiorari to answer the “precise question” of “whether ineffective assistance in
an initial-review collateral proceeding on a claim of ineffective assistance at trial
may provide cause for a procedural default in a federal habeas proceeding.”
Martinez, 566 U.S. at 9. The Supreme Court held that if state law requires state
prisoners to raise ineffective assistance of trial counsel claims “in an initialreview collateral proceeding, a procedural default will not bar a federal habeas
court from hearing a substantial claim of ineffective assistance at trial if, in the
initial-review collateral proceeding, there was no counsel or counsel in that
proceeding was ineffective.” 566 U.S. at 17 (emphasis added).
In Trevino, the Court considered “whether, as a systematic matter, Texas
affords meaningful review of a claim of ineffective assistance of trial counsel.”
Trevino, at 425.

Concluding it did not, the Court extended the holding of
19

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 20 of 29 PageID #: 9594
47a
Martinez to jurisdictions like Texas where, although one can technically raise
ineffective assistance of trial counsel claims on direct review, the “structure and
design” of the system make that “virtually impossible.” 569 U.S. at 416.
2. The Extension of the Martinez–Trevino Doctrine in the Seventh Circuit
In Ramirez, the Seventh Circuit addressed, to a limited extent, whether the
Martinez–Trevino doctrine applies in the context of a federal § 2255 proceeding.
The petitioner was a federal prisoner who failed to timely appeal the denial of his
§ 2255 motion because § 2255 counsel abandoned him.

799 F.3d at 847.

Consequently, he was not able to obtain appellate review of his § 2255
proceeding. Id. at 849. The petitioner then “moved under Federal Rule of Civil
Procedure 60(b)(6) for relief from the judgment,” arguing “that postconviction
counsel was ineffective for causing him to miss the appeal deadline.” Id. at 848.
The District Court denied the motion, believing that “there is no right to counsel
on collateral review.” Id. (citing Coleman v. Thompson, 501 U.S. 722 (1991)).
The Seventh Circuit resolved two issues. It first found that the petitioner
was not “trying to present a new reason why he should be relieved of either his
conviction or sentence” but instead was “trying to reopen his existing section
2255 proceeding and overcome a procedural barrier to its adjudication.” Id. at
850.

Under these circumstances, the Seventh Circuit concluded that the

petitioner’s Rule 60(b)(6) motion was permitted and was “not a disguised second
or successive motion under section 2255.” Id.
The Seventh Circuit next concluded that the Martinez–Trevino doctrine
applies to federal prisoners “who bring motions for postconviction relief under
20

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 21 of 29 PageID #: 9595
48a
section 2255.” Ramirez, 799 F.3d at 852. Therefore, under Rule 60(b)(6), the
petitioner could argue that § 2255 counsel’s abandonment allowed him to file an
otherwise untimely appeal. Id. at 854 (“We see no reason to distinguish between
actions at the state level that result in procedural default and the consequent
loss of a chance for federal review [as happened in Martinez and Trevino], and
actions at the federal level that similarly lead to a procedural default that forfeits
appellate review.”).
3. Mr. Purkey’s Claims Cannot Proceed Under Martinez, Trevino, or Ramirez
Mr. Purkey argues that under Ramirez, he may now raise claims of
ineffective assistance of trial counsel that were not raised in his § 2255 action
due to ineffective assistance of § 2255 counsel.

Acknowledging that he cannot

bring a second or successive § 2255 action, Mr. Purkey argues that he
nonetheless has the right to judicial review of his § 2255 proceeding. Dkt. 23 at
15-18. More specifically, he argues that he must be able to present his claims
in a § 2241 action and that Ramirez supports opening this avenue of review.
The Court disagrees. Martinez, Trevino, and Ramirez do not involve the
Savings Clause and thus are not controlling.

Moreover, nothing in Ramirez

suggests that its holding regarding Martinez–Trevino applies outside of the
§ 2255 context. The Seventh Circuit framed the second legal question in Ramirez
as whether Martinez and Trevino “apply to some or all federal prisoners who bring
motions for postconviction relief under section 2255.” 799 F.3d at 852 (emphasis
added). But this says nothing about whether Martinez–Trevino has any role in
demonstrating whether the Savings Clause is met and thus whether § 2241 is
21

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 22 of 29 PageID #: 9596
49a
available. Further, applying Martinez–Trevino to the narrow circumstances of a
Rule 60(b) motion in a § 2255 proceeding does not create a rule that federal
prisoners must have an alternative way to raise ineffective assistance of
postconviction counsel when § 2255 is closed. Ramirez does not address these
questions at all. And unlike the petitioner in Ramirez, Mr. Purkey had appellate
review of his § 2255 case. Applying it here would therefore require a substantial
extension of Ramirez, and the Seventh Circuit has rejected other opportunities
to do so. Cf. Lombardo, 860 F.3d at 559 (holding that Ramirez should not be
extended to the equitable tolling context).
Moreover, Ramirez has been construed narrowly by the Seventh Circuit to
the facts involving abandonment of counsel. See Lombardo v. United States, 860
F.3d 547, 559 (7th Cir. 2017) (“[N]otwithstanding its discussion of Martinez and
Trevino and its embracing of the principles underlying those cases, Ramirez’s
holding is best construed as resting on [counsel] abandonment.”); see also
Adams v. United States, 911 F.3d 397, 404 n.2 (7th Cir. 2018) (citing Ramirez
for the proposition that “[a]bandonment by counsel” can qualify as a procedural
defect that can be raised in a Rule 60(b) motion following the denial of § 2255
relief).
For these reasons, the Court rejects Mr. Purkey’s argument that ineffective
assistance of trial counsel claims that rely on Martinez–Trevino meet the Savings
Clause. 5

Mr. Purkey does not cite any federal court that has accepted this

Mr. Purkey argues, in reply, that the Martinez–Trevino doctrine permits his
fraud-on-the-Court claim (Claim 3) to proceed in this action. Dkt. 58 at 57-58.

5

22

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 23 of 29 PageID #: 9597
50a
argument, and the federal courts that have considered this argument have
rejected it. See, e.g., United States v. Sheppard, 742 F. App’x 599 (3d Cir. 2018)
(rejecting the petitioner’s argument that Ramirez shows he meets the Savings
Clause because he can raise the Martinez–Trevino issue in a Rule 60(b) motion
in the underlying § 2255; “Section 2255 together with Rule 60(b) thus plainly is
not inadequate or ineffective to test the legality of [the petitioner’s] conviction
and sentence such that he may resort to a § 2241 habeas corpus petition.”);
Rojas v. Unknown Party, 2017 WL 4286186, *6 (D. Ariz. May 16, 2017) (“Martinez
and Trevino do not impact the [Savings Clause] analysis or otherwise apply to §
2241 petitions. Simply stated, Martinez and Trevino were based on the narrow
ground of procedural default in the context of a § 2254 petition. The reasoning
of these cases has never been extended or applied by any court to a § 2241
petition.”); see also Dinwiddie v. United States, No. 2:18-cv-00149-JPH-MJD,
Dkt. 25 (S.D. Ind. July 25, 2019); Jackman v. Shartle, 535 F. App’x 87, 89 n.5
(3d Cir. 2013).
The Court concludes that neither Ramirez nor any other precedent
requires it to grant Mr. Purkey the relief he seeks.
E.

There is No Structural Problem with § 2255 When Applied to
Mr. Purkey’s Case

To the extent that Ramirez may authorize, without requiring, the Court to
extend Ramirez’s holding to the Savings Clause context, the Court declines to do
so. There is no structural problem with § 2255 when applied to the facts of Mr.
For the same reasons it does not permit his ineffective assistance claims to
proceed, the Court rejects this contention.
23

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 24 of 29 PageID #: 9598
51a
Purkey’s case. While Mr. Purkey did not succeed with his § 2255 motion, a
structural problem requires “something more than a lack of success with a
section 2255 motion.” Webster, 784 F.3d at 1136. It must “foreclose[] even one
round of effective collateral review, unrelated to the petitioner’s own mistakes.”
Poe v. LaRiva, 834 F.3d 770, 773 (7th Cir. 2016) (citation and quotation omitted).
That’s not the case here.
In his § 2255 action, Mr. Purkey made 17 allegations of ineffective
assistance against his trial counsel. Those claims were heard and adjudicated
by the District Court, and the denial of them was affirmed by the Eighth Circuit.
The record demonstrates that Mr. Purkey had “‘a reasonable opportunity [in a
prior § 2255 proceeding] to obtain a reliable judicial determination of the
fundamental legality of his conviction and sentence.’” Chazen, 938 F.3d at 856
(quoting Davenport, 147 F.3d at 609) (emphasis added); see Davenport, 147 F.3d
at 609 (“Nothing in 2255 made the remedy provided by that section inadequate
to enable Davenport to test the legality of his imprisonment. He had an
unobstructed procedural shot at getting his sentence vacated.”). A reasonable
opportunity does not include the opportunity to years later second-guess the
selection of the claims that were asserted in the § 2255 action, pick new or
“better” claims, and have those claims subject to judicial review in another
judicial district.

Applied to the facts of Mr. Purkey’s case, § 2255 is not

inadequate or ineffective.
Moreover, allowing Mr. Purkey’s ineffective assistance claims to be brought
in a § 2241 proceeding would be contrary to the statutory framework Congress
24

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 25 of 29 PageID #: 9599
52a
created for federal prisoners seeking postconviction relief. Congress amended
§ 2255 in 1996 as part of the Antiterrorism and Effective Death Penalty Act
(“AEDPA”). Most relevant here, AEDPA limits federal prisoners to one § 2255
motion unless they receive authorization from the Court of Appeals to file a
second or successive § 2255 motion. 28 U.S.C. § 2255(h). This limitation was
designed to curtail the problem of “repetitive filings” from federal prisoners
challenging their convictions. Garza, 253 F.3d at 922.
Congress chose to “steer[] almost all [federal] prisoner challenges to their
convictions and sentences toward § 2255.” Shepherd, 911 F.3d at 862. It did
so by requiring § 2255 motions be filed in the district of conviction, Light, 761
F.3d at 812, and limiting federal prisoners’ access to § 2241 by way of the
Savings Clause.

See Davenport, 147 F.3d at 609 (“The purpose behind the

enactment of section 2255 was to change the venue of postconviction
proceedings brought by federal prisoners from the district of incarceration to the
district in which the prisoner had been sentenced.”

(citing United States v.

Hayman, 342 U.S. 205, 212-19 (1952)).
Section 2255 “not only relieved the district courts where the major federal
prisons were located from a heavy load of petitions for collateral relief; it also
enhanced the efficiency of the system by assigning these cases to the judges who
were familiar with the records.” Webster, 784 F.3d at 1145.
The Savings Clause “must be applied in light of [§ 2255’s] history.” Taylor
v. Gilkey, 314 F.3d 832 (7th Cir. 2002); see Unthank v. Jett, 549 F.3d 534, 535
(7th Cir. 2008) (same).

It cannot be interpreted so expansively that it
25

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 26 of 29 PageID #: 9600
53a
undermines “the careful structure Congress has created.” Garza, 253 F.3d at
921; see Chazen, 938 F.3d at 865 (Barrett, J., concurring) (expressing
“skeptic[ism]” of an argument that, if accepted, “risks recreating some of the
problems that § 2255 was designed to fix”).
In the limited instances where the Seventh Circuit has found the Savings
Clause met, the Court crafted narrow holdings so as to not “creat[e] too large an
exception to the exclusivity of section 2255.” Webster, 784 F.3d at 1140; see id.
at 1140 n.9. Here, that’s not possible. The petitioners in Davenport, Garza, and
Webster each presented a very specific “problem” based on a unique set of facts
presented. In each case the relief granted was symmetrical, and thus inherently
limited to a very small category of cases involving scenarios that could not or
were not foreseen by Congress.

In Davenport, for example, the petitioner’s

“problem” was that § 2255(h) did not permit a successive petition for new rules
of statutory law.

To fix this problem, the Seventh Circuit crafted a narrow

exception with three specific requirements limiting when and how a petitioner
could pass through this exception. See Beason, 926 F.3d at 935; Davenport, 147
F.3d at 610-12.
Here, there is no very specific “problem” based on a unique set of facts that
could be remedied through a narrowly drawn rule that would apply to a very
small category of cases. Mr. Purkey’s “problem” is that after availing himself of
the postconviction relief process created by Congress, including appellate review,
he did not get the outcome that he wanted on his claims of ineffective assistance

26

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 27 of 29 PageID #: 9601
54a
of counsel. But there is no “something more,” Webster, 784 F.3d at 1136, so
there is no structural problem with § 2255.
Unlike the limited types of claims that the Seventh Circuit has held to meet
the Savings Clause in Davenport (statutory claims based on a retroactive change
in the law), Garza (claims based on new decisions from international tribunals),
and Webster (Atkins or Roper claims based on newly discovered evidence that
existed at the time of the original proceedings and could not be discovered
through reasonable diligence), Mr. Purkey asks the Court to allow ineffective
assistance of trial counsel claims to proceed through the Savings Clause on the
basis that § 2255 counsel was ineffective.

But unlike the relatively narrow

categories of claims allowed to proceed in Davenport, Garza, and Webster,
ineffective assistance of trial claims are ubiquitous. See Burt v. Titlow, 571 U.S.
12, 19 (2013) (emphasizing that ineffective assistance of counsel claims are
“common” and have been “adjudicated in countless criminal cases for nearly 30
years”). To allow such a frequently litigated claim to be raised in a § 2241 petition
would dismantle the very structure of § 2255. “If error in the resolution of a
collateral attack were enough to show that § 2255 is inadequate or ineffective,
many of the amendments made in 1996 would be set at naught.” Taylor, 314
F.3d at 836.
IV.
For the foregoing reasons, the claims Mr. Purkey presents in his petition
for a writ of habeas corpus pursuant to 28 U.S.C. § 2241 are barred by the
Savings Clause, 28 U.S.C. § 2255(e). His ineffective assistance of trial counsel
27

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 28 of 29 PageID #: 9602
55a
claims (Claims 1, 2, and 8) are rejected for the reasons set forth in Sections III.D
and III.E. His remaining five claims fail to fall within any of the Seventh Circuit’s
Savings Clause precedents, and Mr. Purkey does not advance any basis for
extending those precedents to these claims. Accordingly, his petition is denied
with prejudice. See Prevatte v. Merlak, 865 F.3d 894, 901 (7th Cir. 2017)
(explaining that dismissals pursuant to § 2255(e) are with prejudice).
Because the Court has resolved Mr. Purkey’s claims, his motion to stay
his execution pending resolution of his claims, dkt. [4], is denied as moot. Final
Judgment consistent with this Order shall issue.
SO ORDERED.

Date: 11/20/2019

Distribution:
Brian Patrick Casey
U.S. ATTORNEY'S OFFICE
brian.casey@usdoj.gov
Michelle M. Law
FEDERAL DEFENDER -- WESTERN DISTRICT OF MISSOURI
michelle_law@fd.org
Kathleen D. Mahoney
UNITED STATES ATTORNEY'S OFFICE
kate.mahoney@usdoj.gov
Brian L. Reitz
UNITED STATES ATTORNEY'S OFFICE (Indianapolis)
brian.reitz@usdoj.gov
28

Case 2:19-cv-00414-JPH-DLP Document 76 Filed 11/20/19 Page 29 of 29 PageID #: 9603
56a
Jeffrey E. Valenti
UNITED STATES ATTORNEY'S OFFICE
jeff.valenti@usdoj.gov
Rebecca Ellen Woodman
REBECCA E. WOODMAN, ATTORNEY AT LAW, L.C.
rewlaw@outlook.com

29

